hi •

05.
No.

/H o

2-c> ' lb

IN THE
SUPREME COURT OF THE UNITED STATES

RiMii'U

— PETITIONER

(Your Name)
vs.

Dey'^ f Max-

— RESPONDENT(S)

ON PETITION FOR A WRIT OF CERTIORARI TO

D'S (W-F 4 b-f&AS hr -Ht fj($ <3'mAfc
(NAME OF COURT THAT LAST RULED ON MERITS OF YOUR CASE)
PETITION FOR WRIT OF CERTIORARI

1Wu*$ ftin'mi
(Your Name)

?■/)■ In 341
(Address)

(City, State, Zip Code)

lit
(Phone Number)

Questions Presented
1. Did the First Circuit lack subject matter jurisdiction to rule while an earlierfiled Sarbanes-Oxley matter with identical causes of action is not yet
administratively exhausted before the Department of Labor?

2. Must the Department of Labor comply with Federal Rules of Appellate
Procedure 17 in response to a Petition for Review here including upon
request by Petitioner that the Department of Labor submit the whole
administrative record, so that current administrative activity and subject
matter jurisdiction over the issues presented can be properly and fairly
determined?

3. Did the First Circuit err in mentioning an unrelated and materially breached
agreement dated 2008 despite Sarbanes-Oxley Section 806’s non-waiver
mandate and prior written agreements bar and not having subject matter
jurisdiction over the issues raised because they are administratively active
before the Department of Labor?

LIST OF PARTIES

[i^All parties appear in the caption of the case on the cover page.
[ ] All parties do not appear in the caption of the case on the cover page. A list of
all parties to the proceeding in the court whose judgment is the subject of this
petition is as follows:

RELATED CASES

firsf (Wn
H-I65I & aA
$<conh btvwfi' •

TABLE OF CONTENTS
OPINIONS BELOW

1

JURISDICTION

2-

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

3

STATEMENT OF THE CASE
REASONS FOR GRANTING THE WRIT

*

CONCLUSION

iC
INDEX TO APPENDICES

APPENDIX A
APPENDIX B
APPENDIX C
APPENDIX D
APPENDIX E
APPENDIX F

OfYlifl'A

w- mo

TABLE OF AUTHORITIES CITED
CASES

p/Jy \J- Cj'h'Mvf Ino W VIA
W S.ct. l\llr
M, bkr 9>% Kj)ff 2A «w
^mCw i/. iP- UtfffM
^ ftyf U V!T
IfaXMm t/
AtA- InO ■ 'f Sb £ Suff ^
hl/AJtlMM 1A UhfiMW Bwft&S 461 f'. 7dA l*[
fthna* v" Ip- fcf m ut.

MjnthJpouAbs V'

f

PAGE NUMBER

G?
(o

STATUTES AND RULES

f-dtw*. vM> <| fypiM-*A<- Pwu>dvtu, ifidvhr^ W IT
$rfW'bWUS -0x3<*/ M 4 IbVL-) &

OTHER

(x^'bimi-t fim^rnenb^
VbL P^lirt/ teM'^ ^ V*1^14ih V?,
2^. U
Iri itJUHMoMX' tm,

IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI
Petitioner respectfully prays that a writ of certiorari issue to review the judgment below.
OPINIONS BELOW
[i/f^For cases from federal courts:
The opinion of the United States court of appeals appears at Appendix
the petition and is
[ ] reported at
5 or,
[ ] has been designated for publication but is not yet reported; or,
[ixl is unpublished.
The opinion of the United States district court appears at Appendix
the petition and is

to

[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
[ ] For cases from state courts:
The opinion of the highest state court to review the merits appears at
Appendix_____ to the petition and is
[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
The opinion of the_
appears at Appendix

court
to the petition and is

[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
1.

JURISDICTION
[-T For cases from federal courts:
The date on which the United States Court of Appeals decided my case
was
____________
WfNo petition for rehearing was timely filed in my case.
[ ] A timely petition for rehearing was denied by the United States Court of
Appeals on the following date:____________
, and a copy of the
order denying rehearing appears at Appendix
[i/f^An extension of time to file the petition for
to and including______
in Application No.__ A

a writ of certiorari was granted
(date) on
(date)

The jurisdiction of this Court is invoked under 28 U. S. C. § 1254(1).

(oD-d^i/ iyhw&iw ^
was
by

to &1/

w/rt+

[ ] For cases from state courts:
The date on which the highest state court decided my case was
A copy of that decision appears at Appendix_______
[ ] A timely petition for rehearing was thereafter denied on the following date:
and a copy of the order denying rehearing
appears at Appendix
[ ] An extension of time to file the petition for a writ of certiorari was granted
to and including____
(date) on
(date) in
Application No.__ A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1257(a).

2-

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

Sfl/fhmt ~ (tykj A# j 2d&2-

Wv tru*&

b

Statement of the Case
I worked in the Office of the General Counsel at JPMorgan Chase & Co.,
underlying defendant here. My job included regulatory compliance in employee
surveillance requiring reports internally and to government regulators, including to
the Securities & Exchange Commission (SEC), which results in this SarbanesOxley (SOX) action now.
I was not an attorney at JPMorgan Chase & Co.
I am pro se in this matter.
I.

First Circuit Improperly Ruled On Identical Causes Of Action
Administratively Active Before The Department Of Labor,
Requiring Reversal.

The First Circuit ruled while this matter is still administratively active at the
Department of Labor (DOL) and while the matter is pending as first-filed in the
Second Circuit as 20-4003.
Federal courts are deprived of subject matter jurisdiction in SOX matters
until administrative remedies are exhausted. Daly v. Citigroup Inc., 939 F.3d 415,
427-428 (2d Cir. 2019), cert, denied. 140 S. Ct. 1117, 206 L. Ed. 2d 185 (2020).
See also, Wong v. CKX 890 F. Supp. 2d 411 (SDNY); Sharkey v. J.P. Morgan
Chase & Co.. 805 F.Supp.2d 45, 53 (S.D.N.Y.2011); Bozeman v. Per-Se

4

Technologies. Inc. 456 F. Supp. 2d 1282. Contra - Newman v. Metro. Life Ins.
Co.. No. 12-CV-10078, 2015 WL 275703, at *4 (D. Mass. Jan. 21, 2015), aff d sub
nom. Newman v. Lehman Bros. Holdings Inc., 901 F.3d 19 (1st Cir. 2018)
(administrative exhaustion not required).
The First Circuit’s precedent on administrative exhaustion is different now
from those of other circuits, including of the Second Circuit which stated in Daly
v. Citigroup Inc., “ATlhe text of SOX makes clear that Congress intendedfor its
administrative exhaustion requirements to be a jurisdictional prerequisite to suit in
federal court. ” The matter was reviewed by the Supreme Court.
There is (1) a 2016 Complaint and (2) a request for hearing to review
documents bearing directly on this matter pending before the DOL. The issues the
First Circuit considered and the matter generally are not administratively exhausted
at DOL.
Therefore, the First Circuit must be reversed.
II.

DOL Did Not Comply With FRAP 17, Raising Due Process Issues

a. The DOL did not submit the whole administrative record in this matter as
required by FRAP 17 and my requests, so the matter has proceeded unfairly and
outside of due process and backwards, including temporally backwards, because an
earlier SOX complaint filed in July 2016 is still administratively active at the DOL.

<f

Without the full administrative record, it was impossible for the First Circuit
assess its jurisdiction and whether it had subject matter over the issues it reviewed
and whether it would break from its own precedent to align with other courts and
Daly v. Citigroup Inc.
Notwithstanding, the First Circuit did not have jurisdiction because the
issues it considered are administratively active before the DOL and, additionally,
all of violations of the SOX statute occurred in New York City while working in
New York City and a resident there. The First Circuit’s statement that I have not
worked since 2008 is factually incorrect and does not reflect the record.
Appellate jurisdiction in SOX matters attaches to the U.S. Court of Appeals
in the Circuit where the violations occurred or the claimant lived at the time, both
New York City.
b. There is a “complete identity of the causes of action” among the issues
proceeding before the DOL and those the First Circuit considered.
The First Circuit simply did not have the subject matter jurisdiction required
to rule in this matter or full administrative details to properly consider equitable
tolling, even outside of the jurisdictional issue, requiring reversal. Johnson v. Ry.
Exp. Agency, Inc., 421 U.S. 454, 467, 95 S. Ct. 1716, 1723, 44 L. Ed. 2d 295

It

(1975). See, Xanthopoulos v. United States Dep't of Lab., 991 F.3d 823, 833 (7th
Cir. 2021).
If necessary, later this matter should be fairly equitably tolled.
III.

Prior Written Agreements Are Barred From SOX Matters,
Pursuant Sarbanes Oxley Section 806. 18 USC 1514A(e)(I).

The First Circuit ruled against SOX blackletter law and the DOL’s own
policies by mentioning an unrelated and materially breached employment contract
dated in 2008, notwithstanding that the First Circuit did not have subject matter
jurisdiction to rule.
Sarbanes-Oxley, 18 USC 1514A(e)(l) states:
“The rights and remedies providedfor in this section may not be waived by
any agreement, policy form, or condition of employment, including by a
predispute arbitration agreement. ”
Further, the agreement violates express DOL policy and is unenforceable in
a SOX action, pursuant to DOL’s Policy Guidelines for Approving Settlement
Agreements in Whistleblower Cases, DOL August 23, 2016. See, Exhibit A.
The First Circuit’s ruling is clearly erroneous, against SOX law 18 USC
1514A(e)(l) and represents a complete u-tum from DOL policy.
Reasons for Granting the Petition
I.

The First Circuit’s Ruling Conflicts With And Splits From
Widely-Accepted Precedent Reviewed By the Supreme
Court.
>

Federal courts are deprived of subject matter jurisdiction in SOX matters
until administrative remedies are exhausted. See, Daly v. Citigroup Inc., 939 F.3d
415, 428 (2d Cir. 2019), cert, denied, 140 S. Ct. 1117, 206 L. Ed. 2d 185 (2020)
The First Circuit did not have subject matter jurisdiction to rule. The matter
is administratively active before the DOL.
Because this was no attempt to determine administrative activity and the full
administrative record was not submitted by DOL as required by FRAP 17 during
First Circuit proceedings, this matter has proceeded outside of due process and
confusingly.
II.

Equitable Tolling Would Be Entirely Proper If The First
Circuit Had Subject Matter Jurisdiction

The issues are identical to those administratively active and proceeding
before the DOL, equitable tolling would be proper and appropriate if this matter
were administratively exhausted. Johnson v. Ry. Exp. Agency, Inc., 421 U.S. 454,
467, 95 S. Ct. 1716, 1723, 44 L. Ed. 2d 295 (1975).
Notwithstanding, the First Circuit did not have subject matter jurisdiction to
rule.

%

The file numbers referenced by the First Circuit as part of this Petition for
Review are ARB Nos. 2018-39 and 2018-70 and 2019-73 and exclude a July 2016
complaint administratively active at DOL.
Furthermore, one of the complaints included among the ARB file numbers
above is not a complaint at all. It is a statement I provided to OSHA pursuant to
the Investigator’s request in connection with the current administrative action
pending before DOL. It’s not a separate complaint. This is another due process
error. All of this is impossible for courts to review because of DOL’s
noncompliance with FRAP 17.
The complaint currently administratively active before the DOL and issues
therein cannot be included for review in federal court until they are
administratively exhausted, mandating First Circuit reversal in this case.
III.

The First Circuit’s Ruling Contravenes DOL Policy And
Blackletter Sarbanes-Oxley Law, Specifically 18 USC
1514A(e)(l).

SOX expressly prohibits the use of prior written agreements as a defense or
bar to any remedy in SOX Section 806 employee protection actions,
notwithstanding the agreement referenced is materially breached and not allowed
and unenforceable under DOL policies included infra.

1

I asked that the First Circuit enter a default judgement because the DOL did
not comply with FRAP 17 making this matter impossible to fairly evaluate
according to due process resulting in prejudice.
I ask that the Supreme Court consider entering a default judgement against
DOL in this matter for noncompliance with FRAP 17. I have made many requests
to DOL that it perfect the record pursuant to FRAP 17 and it has not.

10

CONCLUSION

The petition for a writ of certiorari should be granted.

Respectfully submitted,

Date:

J

